    IMPLEMENTATION REVIEW OF THE
 REVIEW OF FEDERAL SUPPLY SERVICE’S
    SPECIAL ORDER PROGRAM IN THE
          HEARTLAND REGION
AUDIT REPORT NUMBER A020204/F/6/V04010
       DATED SEPTEMBER 27, 2004
      ASSIGNMENT NUMBER A100104
             APRIL 20, 2010
Date       :April   20, 2010
Reply to
Attn of    :Regional   Inspector General for Auditing (JA-6)

Subject    :Implementation    Review of the
               Review of Federal Supply Service’s Special Order Program in the Heartland Region
               Audit Report Number A020204/F/6/V04010, Dated September 27, 2004
               Assignment Number A100104

To         :Michael T. Brincks, FAS Regional Commissioner (6Q)
           FAS Regional Commissioner
           Attn: Denise Elsbernd
           Director, Heartland Supply Operations Center (QSDK)


           We performed an implementation review of management’s actions taken in response to
           the five recommendations included in the subject audit report. The objective of the
           implementation review was to determine whether corrective actions were taken in
           accordance with management’s January 12, 2005, action plan that constituted the basis
           for resolution of the audit.

           To complete this evaluation, we reviewed (1) the subject audit report, recommendations,
           and action plan; (2) the audit resolution documentation and files; and (3) documentation
           provided by the Heartland Supply Operations Division and Center for Facilities
           Maintenance and Hardware. We also held discussions with appropriate Federal
           Acquisition Service officials.

           We determined that appropriate corrective actions have been taken in accordance with
           management’s action plan. We note that recommendation one is currently scheduled to
           be completed by September 2010.

           This report does not require a written response. If you have any questions regarding this
           review, please contact Mike Capper or Tracy Twombly of my staff at (816) 926-7052.




            
                       IMPLEMENTATION REVIEW OF THE
                    REVIEW OF FEDERAL SUPPLY SERVICE’S
                       SPECIAL ORDER PROGRAM IN THE
                             HEARTLAND REGION
                   AUDIT REPORT NUMBER A020204/F/6/V04010
                          DATED SEPTEMBER 27, 2004
                         ASSIGNMENT NUMBER A100104

                                    APPENDIX A

                 Recommendations from Report A020204/F/6/V04010


Recommendation 1 – Heartland Region FSS (Federal Supply Service) begin
                   implementation of the plan for removal of all NSNs (National Stock
                   Numbers) from CFMH (Center for Facilities Maintenance and
                   Hardware) MAS (Multiple Award Schedule) contracts.

Recommendation 2 – Heartland Region FSS establish a policy to unilaterally deactivate
                   NSNs that have had no ordering activity for the prior three years.

Recommendation 3 – Heartland Region FSS evaluate the inefficiencies of using outside
                   labor to input information for re-entry orders.

Recommendation 4 – Heartland Region FSS transfer the responsibility for the processing
                   of appliance orders to Heartland Region Global Supply from CFMH.

Recommendation 5 – Heartland Region FSS continually reinforce FAR (Federal
                   Acquisition Regulation) requirements and the standards of conduct
                   related to acquisition responsibilities.




                                         A-1
         IMPLEMENTATION REVIEW OF THE
      REVIEW OF FEDERAL SUPPLY SERVICE’S
         SPECIAL ORDER PROGRAM IN THE
               HEARTLAND REGION
     AUDIT REPORT NUMBER A020204/F/6/V04010
            DATED SEPTEMBER 27, 2004
           ASSIGNMENT NUMBER A100104

                                      APPENDIX B

                Management’s Corrective Action Plan
(For more information on the Management’s Corrective Active Plan, contact Tracy Twombly at 816-926-8621)




                                                B-1
                  APPENDIX B

    Management’s Corrective Action Plan (cont.)




 




                       B-2
                  APPENDIX B

    Management’s Corrective Action Plan (cont.)




 



                       B-3
              APPENDIX B

Management’s Corrective Action Plan (cont.)




                   B-4
                        IMPLEMENTATION REVIEW OF THE
                     REVIEW OF FEDERAL SUPPLY SERVICE’S
                        SPECIAL ORDER PROGRAM IN THE
                              HEARTLAND REGION
                    AUDIT REPORT NUMBER A020204/F/6/V04010
                           DATED SEPTEMBER 27, 2004
                          ASSIGNMENT NUMBER A100104



                                REPORT DISTRIBUTION

                                                             Copies

Regional Commissioner, FAS (6Q)                                2

Director, Heartland Supply Operations Center (QSDK)            1

Inspector General (J)                                          4

Director, Audit Operations (JAO)                               1

Acquisition Programs Audits (JA-A)                             1

Regional Inspector General for Investigations (JI-6)           1

Internal Control and Audit Division (BEI)                      1
 
 




                                            C-1
